<html>
<title> - CRISIS IN PAKISTAN</title>
<body><pre>[Senate Hearing 106-298]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-298
                           CRISIS IN PAKISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-870 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Inderfurth, Hon. Karl Frederick, Assistant Secretary of State for 
  South Asian Affairs, Department of State.......................     3
    Prepared statement of........................................     7

                                 (iii)


 
                           CRISIS IN PAKISTAN

                              ----------                              


                       THURSDAY, OCTOBER 14, 1999

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 2:09 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman of the 
subcommittee) presiding.
    Present: Senator Brownback.
    Senator Brownback. The hearing will come to order. Thank 
you all for joining us today. I anticipate we will be joined 
soon by Senator Wellstone and possibly some other members, but 
in the interest of time, the appointed hour has arrived and we 
will go ahead with the hearing.
    Thank you all for joining us. Secretary Inderfurth, welcome 
again to the committee. As we talked previously ahead of time, 
it seems like you always come up during difficult times. So, I 
guess I should say I am not so happy to see you because that 
usually harbingers a difficult time we are having.
    It was a disappointment to see the news previously, 2 days 
ago, of the military takeover in Pakistan. Nawaz Sharif was the 
democratically elected Prime Minister of Pakistan, and he has 
been a good friend of the United States.
    The problems we are experiencing today precede Pakistan's 
nuclear detonation. They precede Nawaz Sharif's current 
government and his previous one as well. They are, I believe, 
in large part the result of an inconsistent and I believe a 
flawed policy toward what was once one of our best friends in 
South Asia.
    You will, I am sure, be pleased to hear that I am persuaded 
that both the administration and the Congress share the blame: 
Congress for sanctioning Pakistan and curtailing our ability to 
influence Islamabad; the administration for, I believe pursuing 
a one-issue policy since the nuclear test a year and a half 
ago.
    Do not mistake what I am saying. The U.S. rightly strived 
to have influence in an important part of the world. One of the 
ways we can do that is by not falling into the trap of zero sum 
politics on the South Asian subcontinent. What is good for 
India is not bad for Pakistan and what is bad for Pakistan is 
not good for India. Each nation in its own right deserves a 
separate foreign policy. However--and this is a vital caveat--
when the U.S. treats the same problem in India and Pakistan 
differently, we create problems for ourselves.
    Neither nation should be in the nuclear business. Neither 
nation should have detonated a nuclear device. And when they 
did, each deserved the sanctions imposed on them by the 
President. Looking back, however, I believe we made a mistake 
in threatening and then sanctioning only Pakistan for its 
development of a nuclear weapon. While I understand some of the 
motivations behind the Pressler amendment, I am persuaded that 
ultimately it had the effect of driving Pakistan to a greater 
reliance on a nuclear deterrent. It also had the effect of 
lessening our influence over the Pakistani military which, 
whether we like it or not, is where the real power resides, in 
Pakistan.
    The Pakistan army, once a bastion of U.S.-trained officers 
with secular pro-Western views, now relies on soldiers trained 
in Islamist institutions. It should hardly come as a surprise 
to us that the result is adventures such as the ill-considered 
incursion over the line of control in Kashmir earlier this 
year. Had we remained consistent in our engagement with the 
Pakistani military, we could possibly be in a better position 
than we are today.
    The Pressler amendment is not the only culprit in the ``who 
lost Pakistan'' debate. Recent administration policy has also 
led us to where we are today. And here again let us face facts. 
What looks like a good South Asian policy in Washington is not 
necessarily good politics in Pakistan. With both carrot and 
stick, this administration has tried to force both India and 
Pakistan into signing the CTBT. This kind of single-mindedness 
on our part, I have said time and again, is dangerously short-
sighted. This summer this administration used all of its powers 
of suasion to force a Pakistani withdrawal back to the line of 
control in Kashmir. While I agree that Pakistan's actions in 
Kashmir have been dangerous and ill-considered, I also believe 
a negotiated withdrawal would have benefited both India and 
Pakistan without making Nawaz Sharif look like a U.S. puppet to 
his own people.
    Another fact: The United States has pressured Pakistan not 
to do any further missile testing, and this is an excellent 
policy. But was it imperative to beat the Sharif Government 
into submission on this matter in light of India's continued 
testing? I ask myself and I intend to ask you as well, how have 
we furthered our goals in South Asia policy by positioning and 
putting a weakened democratically elected government in 
Pakistan in an even more difficult and weaker position?
    And now that we are faced with this extra-constitutional 
event--I guess that is diplo speak for a coup--what are we 
going to do? Are we going to cutoff aid? Did that. Give them a 
cold shoulder? Did that too.
    We are left without too many options. Though we are 
providing the President with a waiver on the Glenn amendments, 
sanctions should not be waived under the current circumstances, 
I do not believe. Indeed, section 508 of the 1999 Foreign 
Operations Appropriations Act mandates a cutoff of aid in view 
of the military coup. Yet, if we let Pakistan go now without 
any sanctions relief, the United States will be left with no 
leverage at all. We will have no policy tool capable of 
providing any incentive for a military regime to bring back a 
democratically elected civilian government.
    Democracy must be restored in Pakistan. If the duly elected 
government has lost all credibility, then a caretaker 
government should be appointed. Long-term military control is 
unacceptable.
    Finally, I want it absolutely clear that I support the 
administration's desire to promote stability in South Asia. 
However, by making demands which I believe destabilize a 
fragile democracy in Pakistan, we may well have set back our 
goals by many years.
    I look forward to hearing your comments, Secretary 
Inderfurth, as to where we go forward from here.
    I would just like to note to those in attendance and those 
listening, this subcommittee, myself, Secretary Inderfurth have 
worked a great deal of time and put a lot of effort into 
providing the President with waiver authority toward sanction 
in Pakistan and in India. Those are in the defense 
appropriation bill that will be voted on later today by the 
Senate. I intend to vote for that bill, and I continue to 
believe that is the right policy for us to pursue.
    I would hope that we could move forward, once that is done, 
press the government in Pakistan to return to a constitutional 
government, and then fully reengage with Pakistan on a broad 
basis, on a broad set of issues that the administration would 
be willing to engage with them on, economic, on military 
training, so that we can build these relationships and in 5 or 
10 years not look back and find ourselves in the same 
predicament that we find ourselves in today. These are 
important times for us as a country and certainly for the 
Indian subcontinent. I think we need to be very careful in our 
review and see where we went wrong in the past and try to 
project into the future and say, how can we correct and not 
repeat the same mistakes again.
    Secretary Inderfurth, again, delighted to have you here in 
the committee, and the floor is yours.

    STATEMENT OF HON. KARL FREDERICK INDERFURTH, ASSISTANT 
SECRETARY OF STATE FOR SOUTH ASIAN AFFAIRS, DEPARTMENT OF STATE

    Mr. Inderfurth. Thank you, Mr. Chairman. If I may, I would 
like to start off in a slightly unorthodox way to respond to 
the last point that you made about broader engagement. This is 
an area that I think you and I have discussed before and I 
think that we are very much in agreement on. I would like to 
say a word about the need for broader engagement.
    As I said, I could not agree more with your view that what 
we need is greater not less involvement with Pakistan. It is a 
country where our national interests are engaged. Clearly the 
impact of almost a decade of sanctions has restricted our level 
of engagement, including valuable contacts with the Pakistani 
military. For some time, we have wanted to establish a broader 
relationship with Pakistan, one that is more sustainable for 
the future. That is still our objective and we will pursue it 
as soon as circumstances permit.
    I also want to say that we are very pleased in this regard 
that it appears the Senate will pass the DOD appropriations 
bill and send it along to the President for signature. That 
bill contains the comprehensive waiver authority we were 
seeking with respect to the sanctions that were put into place 
after the nuclear tests by India and Pakistan. I want to thank 
you, Senator Brownback, for your leadership in this regard. We 
look forward to working with you and members of the committee 
on determining how best to use that waiver authority and the 
appropriate timing. I thought that while that subject was at 
hand, that I would want to make that brief statement.
    Senator Brownback. Thank you, and I look forward to working 
with you on that as well.
    Mr. Inderfurth. Mr. Chairman, I do appreciate, as I said to 
you before the hearing began, this opportunity to appear today. 
I do regret that once again I am bringing bad news to you and 
the committee. We have many issues in South Asia that warrant 
our full attention, but none is more important today than the 
political crisis in Pakistan that you asked me to address. I 
look forward to discussing with you how we can fashion a U.S. 
response which promotes a prompt restoration of democracy in 
that country.
    I would like to begin by reading the statement issued last 
night by the White House from President Clinton. The President 
said--and I quote--``The events in Pakistan this week represent 
another setback to Pakistani democracy. Pakistan's interests 
would be served by a prompt return to civilian rule and 
restoration of the democratic process. I urge that Pakistan 
move quickly in that direction. I am sending my Ambassador back 
to Islamabad to underscore my view directly to the military 
authorities and to hear their intentions. I will also be 
consulting closely with all concerned nations about maintaining 
peace and stability in South Asia.''
    Mr. Chairman, let me now outline the facts as we know them, 
with a caveat, that the situation remains fluid.
    On Tuesday of this week, October 12, the Government of 
Prime Minister Nawaz Sharif announced the retirement of Chief 
of Army Staff Musharraf, who was out of the country at the 
time. Musharraf arrived in Pakistan from a visit to Sri Lanka 
shortly after the announcement was made. Simultaneously, 
military personnel under Musharraf's control placed the Prime 
Minister and other civilian and military leaders under house 
arrest. The armed forces closed the airports to civilian 
traffic, took over the state-controlled broadcast media, and 
interrupted some communications systems.
    We listened closely to what General Musharraf had to say 
two nights ago when he addressed the nation about the decision 
and rationale for why the armed forces moved in to reestablish 
order--those were his words--in Pakistan, and why Prime 
Minister Sharif was removed from office. We also noted that 
General Musharraf promised that a further policy statement 
would be forthcoming shortly. We are still awaiting that 
statement. Apparently he has been consulting with 
constitutional experts, corps commanders, and prospective 
government appointees about his next steps. When his statement 
is made, we hope that General Musharraf will set forth clear 
plans for the restoration of civilian government in Pakistan.
    Mr. Chairman, that the military has deposed a 
democratically elected government is clear. It is, however, 
unclear whether General Musharraf intends to remain in 
political control, even in the short term. While the Pakistani 
army did shut down the parliament building today and our 
charge, Michele Sison, was informed that the federal government 
and four provincial governments had been dissolved, martial law 
has not been imposed.
    We understand that Prime Minister Sharif, his brother, the 
Chief Minister of Punjab, Sabbaz Sharif, some cabinet members, 
and General Ziauddin, head of the intelligence services, remain 
under house arrest. Our embassy in Islamabad has not been able 
to contact any of these individuals. We call upon the current 
Pakistani authorities to assure their safety and well-being.
    The situation in Pakistan itself remains calm. Public 
reaction has been muted. Airports have been reopened. State-run 
radio and television have resumed normal programming. The 
financial markets remain closed on a banker's holiday.
    I should also note that we have seen no reports of 
disruption or threats to Pakistan's nuclear facilities or any 
other installations.
    Now, while Indian forces have gone on alert, this appears 
to be only a precautionary measure. There does not appear to be 
a heightening of tensions between India and Pakistan. The 
official Indian reaction, as expressed in statements of Prime 
Minister Vajpayee and others, has been cautious and low key.
    Finally, we still have no reports of problems for Americans 
in Pakistan. The U.S. Embassy notified American citizens of the 
crisis and urged them to exercise caution, recommending in 
particular that they limit unnecessary movement outside their 
residences.
    Mr. Chairman, the developments in Pakistan this week 
represent another setback in that country's long struggle to 
establish accountable and viable democratic institutions. In 
the 11 years since 1988 when Benazir Bhutto came to power, no 
elected prime minister has served a full 5-year term. Up to 
this week's action by the military, Prime Minister Sharif had 
served just over 2\1/2\ years of his 5-year term. Pakistan's 
unfortunate history of interrupted democracy continues.
    Mr. Chairman, the political crisis in Pakistan which 
culminated in this week's events is a product of Pakistan's 
history and recent developments. I do not need to remind you of 
the two long periods of martial law in Pakistan. These two 
periods served both to instill in the Pakistani military and 
civilian political class the habit of military involvement in 
politics and to inhibit the development of a stable, 
democratic, constitutional system. Pakistan has yet to develop 
a consensus about how to share responsibility among civil 
institutions, nor has it forged a clear and accepted divide 
between civilian and military responsibilities.
    Now, recent developments did not occur in a vacuum. Many 
Pakistanis viewed the current political and economic 
environment as alarming and getting worse. For the past year, 
Pakistan's economy has required IMF assistance to avert 
collapse. Pressing needs in education and health care went 
unmet in a budget devoted largely to debt service and the 
military. Terrorism and sectarian violence was spreading. 
Pakistanis were increasingly dissatisfied with the Sharif 
Government because of these economic trends and also criticized 
the government for taking actions that weakened the 
institutions of civil society, including the judiciary, the 
press, and non-governmental organizations.
    With respect to foreign policy, February's euphoria, the 
good will, at ``bus diplomacy''--and the historic summit 
meeting in Lahore between Prime Ministers Sharif and Vajpayee--
had dissipated by the summer. The reason was Kargil, something 
you referred to in your statement, the incursion into territory 
on the Indian side of the line of control by forces from 
Pakistan. Serious and deadly fighting resulted, ending only 
when Prime Minister Sharif, in a meeting with President Clinton 
at Blair House, made the wise and courageous decision to take 
steps to encourage the intruders to withdraw.
    Prime Minister Sharif's decision engendered strong 
opposition at home. Some argued that it was a mistake to 
withdraw from Kargil. We could not disagree more. It was the 
right thing to do. The mistake was to launch the incursion in 
the first place. Civilian and military leaders alike at the 
highest level of government share responsibility for that grave 
error which set back the prospect of reconciliation with India 
which had seemed so promising at Lahore and also raised the 
prospect of a larger war between two nuclear capable 
adversaries.
    Now, in the weeks prior to the military takeover, a stream 
of opposition politicians had visited Washington and warned 
that the political situation was approaching crisis 
proportions. They said that Prime Minister Sharif had lost the 
confidence of much of the electorate and that tensions between 
civilian and military authorities were high. We were hearing 
similar reports from our embassy in Islamabad.
    In private, we told the opposition and government alike 
that we opposed any extra-constitutional action against the 
elected government. At the same time, we encouraged the 
government to permit the opposition to demonstrate peacefully 
and to express its views without hindrance and to respect the 
freedom of the press. We also conveyed our views in public.
    Just 2 weeks ago, it seemed that the crisis had been 
averted when General Musharraf was made simultaneously chief of 
army staff and chairman of the joint staff committee, and his 
term extended until October 2001. Unexpectedly and for reasons 
we do not know, Prime Minister Sharif on Tuesday decided to 
remove Musharraf from both positions, precipitating military 
action. Let me emphasize that our understanding of the motives 
of the parties involved is imperfect. What we can say is that 
today the elected Prime Minister and many members of his 
government are in military detection. General Musharraf and the 
military are in control. President Clinton, Secretary Albright, 
and other U.S. officials have expressed both our deep regret at 
this severe setback to democracy and our hope that they will 
see and do their duty to restore Pakistan to civilian, 
democratic, constitutional government as soon as possible. The 
best response to an imperfect democracy is not to replace it 
with an unelected government. The remedy is to take concrete 
steps to strengthen democratic institutions.
    Mr. Chairman, until we see a restoration of a civilian 
democratic government in Pakistan, we have made it clear we 
would not be in a position to carry on business as usual with 
Pakistani authorities. In fact, as you know, section 508 of the 
Foreign Operations Appropriations Act contains a prohibition 
against a broad range of assistance for any country whose 
democratically elected head of government is deposed by 
military coup or decree. We are now in the process of making 
the legal determination that such sanctions should be applied. 
As a practical matter, most forms of assistance were already 
prohibited for Pakistan under the Glenn amendment and other 
statutory restrictions.
    Mr. Chairman, as President Clinton referred in his 
statement last night, U.S. Ambassador to Pakistan, Bill Milam, 
who has just completed urgent consultations here in Washington, 
will arrive tomorrow in Islamabad. He will carry a message from 
the U.S. Government containing our publicly stated expectation 
that democracy and civilian government will be restored as 
early as possible. He will seek to deliver this message to 
General Musharraf immediately upon his arrival. He will also 
make clear that we expect that Prime Minister Sharif, Chief 
Minister Sharif, and other detainees will be treated properly.
    Our view is that the sooner civilian democratic rule is 
restored, the better. Better for the Pakistani people. Better 
for Pakistan as a nation. Better for Pakistan's relations with 
the international community.
    Mr. Chairman, we and other members of the international 
community are watching closely as the situation in Pakistan 
continues to evolve. We are consulting with key states 
regarding the situation. We have a great many important issues 
to address with Pakistan, issues which can best be addressed by 
a democratic government. These include contributing to the 
development of stable, peaceful relations between Pakistan and 
India; averting a nuclear arms race in South Asia; and 
stabilizing the situation in Afghanistan and addressing 
questions of terrorism, human rights, and narcotics.
    Finally, Mr. Chairman, let me underscore one very important 
point. Pakistan is important. It is important because it can 
serve as an example of a progressive Islamic democracy, because 
it is a link, both economic and political, between the Indian 
Ocean and Central Asia, because it has significant human and 
economic resources, and because it has historically been a 
friend of the United States. It is important, therefore, for 
the United States and other longtime friends of Pakistan to 
express their concern, exert their influence, and take those 
steps necessary and appropriate so that Pakistan can resume its 
course toward stable, constitutional democracy as soon as 
possible.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Inderfurth follows:]

             Prepared Statement of Hon. Karl F. Inderfurth

                      political crisis in pakistan
    Mr. Chairman, members of the Committee, I appreciate this 
opportunity to appear before you today. We have many issues in South 
Asia that warrant our full attention. But none is more important today 
than the political crisis in Pakistan you have asked me to address. I 
look forward to discussing with you how we can fashion a U.S. response 
which promotes a prompt restoration of democracy in that country.
    I would like to begin by reading the statement issued last night by 
the White House from President Clinton: ``The events in Pakistan this 
week represent another setback to Pakistani democracy. Pakistan's 
interests would be served by a prompt return to civilian rule and 
restoration of the democratic process. I urge that Pakistan move 
quickly in that direction. I am sending my ambassador back to Islamabad 
to underscore my view directly to the military authorities, and to hear 
their intentions. I will also be consulting closely with all concerned 
nations about maintaining peace and stability in South Asia.''
The Current Situation
    Mr. Chairman let me now outline the facts as we know them, with a 
caveat that the situation remains fluid, our information is imperfect, 
and our understanding of intentions uncertain.
    On Tuesday, October 12, the Government of Prime Minister Nawaz 
Sharif announced the retirement of Chief of Army Staff Musharraf, who 
was out of the country at the time. Musharraf arrived in Pakistan from 
a visit to Sri Lanka shortly after the announcement was made. 
Simultaneously, military personnel under Musharraf's control placed the 
Prime Minister and other civilian and military leaders under house 
arrest. The armed forces closed the airports to civilian traffic, took 
over the state controlled broadcast media and interrupted some 
communications systems.
    We listened closely to what General Musharraf had to say two nights 
ago when he addressed the nation about the decision and rationale for 
why the Armed Forces ``moved in'' to ``reestablish order'' in Pakistan, 
and why Prime Minister Sharif was removed from office. We also noted 
that General Musharraf promised that a further policy statement would 
be forthcoming shortly. We are still awaiting that statement. 
Apparently he has been consulting with constitutional experts, corps 
commanders and prospective government appointees about his next steps. 
When his statement is made, we hope that General Mushanaf will set 
forth clear plans for the restoration of civilian government in 
Pakistan.
    Mr. Chairman, that the military has deposed a democratically 
elected government is clear. It is, however, unclear whether General 
Musharraf intends to remain in political control, even in the short 
term. While the Pakistani Army did shut down the parliament building 
today, and our Charge Michele Sison was informed that the federal 
government and four provincial governments had been dissolved, martial 
law has not been imposed.
    We understand that Prime Minister Sharif, his brother, the Chief 
Minister of Punjab Shabhaz Sharif, some Cabinet members, and General 
Ziauddin, head of the intelligence services, remain under house arrest. 
Our embassy in Islamabad has not been able to contact any of these 
individuals. We call upon the current Pakistani authorities to assure 
their safety and well-being.
    The situation in Pakistan itself remains calm. Public reaction has 
been muted. Airports have been reopened. State run radio and television 
have resumed normal programming. The financial markets remain closed on 
a ``banker's holiday.''
    I should also note that we have seen no reports of disruption or 
threats to Pakistan's nuclear facilities or any other installations.
    While Indian forces have gone on alert, this appears to be only a 
precautionary measure. There does not appear to be a heightening of 
tensions between India and Pakistan. The official Indian reaction--as 
expressed in statements of Prime Minister Vajpayee and others--has been 
cautious and low key.
    We still have no reports of problems for Americans in Pakistan. The 
U.S. Embassy notified American citizens of the crisis and urged them to 
exercise caution, recommending in particular that they limit 
unnecessary movement outside their residences.
The Larger Context
    Mr. Chairman, the developments in Pakistan this week represent 
another setback in that country's long struggle to establish 
accountable and viable democratic institutions. In the 11 years since 
the Pakistan People's Party victory in 1988 brought Benazir Bhutto to 
power, no elected prime minister has served a full five-year term. She 
served only two years of that term. Nawaz Sharif's Pakistan Muslim 
League was victorious in 1990 but he resigned three years later. 
Benazir Bhutto was re-elected in 1993 and dismissed in 1996. Prime 
Minister Sharif won re-election in 1997 and, up to this week's action 
by the military, had served just over 2 years and eight months. 
Pakistan's unfortunate history of interrupted democracy continues.
    Mr. Chairman, the political crisis in Pakistan which culminated in 
this week's events is a product of Pakistan's history and recent 
developments. I do not need to remind you of the two long periods of 
martial law in Pakistan. These two periods served both to instill in 
the Pakistan military and civilian political class the habit of 
military participation in politics and to inhibit the development of a 
stable, democratic, constitutional system. Pakistan has yet to develop 
a consensus about how to share responsibility among civil institutions, 
nor has it forged a clear and accepted divide between civilian and 
military responsibilities.
    Recent developments did not occur in a vacuum. Many Pakistanis 
viewed the current political and economic environment as alarming and 
getting worse For the past year, Pakistan's economy has required IMF 
assistance to avert collapse. Pressing needs in education and health 
care went unmet in a budget devoted largely to debt service and 
defense. Terrorism and sectarian violence were spreading. Pakistanis 
were increasingly dissatisfied with the Sharif Government because of 
these economic trends, and also criticized it for taking actions that 
weakened the institutions of civil society including the judiciary, the 
press, and non-governmental organizations.
    With respect to foreign policy front, February's euphoria at ``bus 
diplomacy''--and the historic summit meeting in Lahore between Prime 
Ministers Sharif and Vajpayee--had dissipated by summer. The reason was 
Kargil, the incursion into territory on the Indian side of the Line of 
Control by forces from Pakistan. Serious and deadly fighting resulted, 
ending only when Prime Minister Sharif, in a meeting with President 
Clinton at Blair House, made the wise and courageous decision to take 
steps to encourage the intruders to withdrawal.
    Prime Minister Sharif's decision engendered strong opposition at 
home. Some argued that it was a mistake to withdraw from Kargil. We 
could not disagree more. It was the right thing to do. The mistake was 
to launch the incursion in the first place. Civilian and military 
leaders alike--at the highest levels of government--share 
responsibility for that grave error, which set back the prospect of 
reconciliation with India which had seemed so promising, and also 
raised the prospect of a larger war between two nuclear capable 
adversaries.
    In the weeks prior to the military takeover, a stream of opposition 
politicians had visited Washington and warned that the political 
situation was approaching crisis proportions. They said that Prime 
Minister Sharif had lost the confidence of much of the electorate and 
that tensions between civilian and military authorities were high.
    In private, we told the opposition and government alike that we 
opposed any extra-constitutional action against the elected government. 
At the same time, we encouraged the government to permit the opposition 
to demonstrate peacefully and to express its views without hindrance. 
We also conveyed our views in public.
    Just two weeks ago, it seemed that the crisis had been averted when 
General Musharraf was made simultaneously Chief of Army Staff and 
Chairman of the Joint Staff Committee, and his term extended until 
October 2001. Unexpectedly, and for reasons we do not know, Prime 
Minister Sharif on Tuesday then decided to remove Musharraf from both 
positions, precipitating military action. Let me emphasize that our 
understanding of the motives of the parties involved is imperfect. What 
we can say is that today the elected prime minister and many members of 
his government are in military detention.
    General Musharraf and the military are in control. President 
Clinton, Secretary Albright and other U.S. officials have expressed 
both our deep regret at this severe setback to democracy, and our hope 
that they will see--and do--their duty to restore Pakistan to civilian, 
democratic, constitutional government as soon as possible. The best 
response to an imperfect democracy is not to replace it with an 
unelected government. The remedy is to take concrete steps to 
strengthen democratic institutions.
What We are Doing
    Mr. Chairman, until we see a restoration of a civilian democratic 
government in Pakistan, we have made it clear we would not be in a 
position to carry on business as usual with Pakistani authorities. In 
fact, as you know, Section 508 of the Foreign Operations Appropriations 
Act contains a prohibition against a broad range of assistance for a 
country whose democratically elected head of government is deposed by 
military coup or decree. We are now in the process of making the legal 
determination that such sanctions should be applied. As a practical 
matter, most forms of assistance were already prohibited for Pakistan 
under the Glenn Amendment and other statutory restrictions.
    As President Clinton referred to in his statement last night, U.S. 
Ambassador to Pakistan, Bill Milam, who has just completed urgent 
consultations in Washington, will arrive tomorrow in Islamabad. He will 
carry a message from the United States Government containing our 
publicly stated expectation that democracy and civilian government be 
restored as early as possible. He will seek to deliver this message to 
General Musharraf immediately upon his arrival. He will also make clear 
that we expect that Prime Minister Sharif, Chief Minister Sharif, and 
all other detainees will be treated properly.
    Our view is that the sooner civilian democratic rule is restored, 
the better. Better for the Pakistani people. Better for Pakistan as a 
nation. Better for Pakistan's relations with the international 
community.
    Mr. Chairman, we and other members of the international community 
are watching closely as the situation in Pakistan continues to evolve. 
We are consulting with key states regarding the situation. We have a 
great many important issues to address with Pakistan, issues which can 
best be addressed by a democratic government. These include:

  <bullet> Contributing to the development of stable, peaceful 
        relations between Pakistan and India;
  <bullet> Averting a nuclear arms race in South Asia; and
  <bullet> Stabilizing the situation in Afghanistan and addressing the 
        questions of terrorism, human rights, and narcotics.

    Pakistan is important. It is important because it can serve as an 
example of a progressive Islamic democracy, because it is a link--both 
economic and political--between the Indian Ocean and Central Asia, 
because it has significant human and economic resources, and because it 
has historically been a friend of the United States. It is important 
therefore for the United States and other long-time friends of Pakistan 
to express their concern, exert their influence, and take those steps 
necessary and appropriate so that Pakistan can resume its course toward 
stable, constitutional democracy as soon as possible.

    Senator Brownback. Thank you very much, Secretary 
Inderfurth, for your comments.
    I want to add my voice to yours and the administration that 
we urge the military in Pakistan to keep safe Prime Minister 
Sharif and the others that they have put under arrest, that 
they must do that. I add my voice to yours with that.
    Secretary Inderfurth, there is a legal term about a coup. I 
believe under any normal definition, this is a coup that has 
taken place in Pakistan.
    Has this, under the legal determination of the State 
Department, been declared a coup that has occurred in Pakistan?
    Mr. Inderfurth. We agree with your assessment. Indeed, the 
definition does meet that of section 508. As I said in my 
testimony, we are preparing the formal legal determination of 
that now.
    Senator Brownback. As you stated as well, there is not a 
whole lot left to throw at the situation as far as any sort of 
sanctions or relationships, but the coup determination does 
have a legal significance to that. And the State Department 
will be filing that soon?
    Mr. Inderfurth. Yes, we will.
    Senator Brownback. Have you had any communications with 
General Musharraf since the coup?
    Mr. Inderfurth. We have not. Again, Ambassador Milam will 
be arriving tomorrow in Islamabad, and a request has been made 
for an appointment with General Musharraf so that he can 
receive the message that we have prepared. But this will be the 
first contact with him since the coup took place.
    Senator Brownback. There have been assertions that the 
administration knew the problems that were brewing between 
General Musharraf and Nawaz Sharif, that these were taking 
place. You had made a public statement not favoring a coup 
attempt. What did the administration know ahead of this coup 
that took place and when did you know it?
    Mr. Inderfurth. Well, again, as my statement pointed out, 
we had been hearing both in Islamabad, as well as when visitors 
came to Washington, that for some time opposition was growing 
to Prime Minister Sharif. In September, two visitors in 
particular came to Washington, both Pakistani politicians, 
former Prime Minister Benazir Bhutto, whom I met with, and 
Imran Khan who ran for office, another noted Pakistani 
politician. They had, along with other opposition parties, 
formed the Grand Democratic Alliance, 19 parties. As Mr. Imran 
Khan said to the Washington Post, when he was here, the 
alliance has one agenda item, and that is the ouster of Nawaz 
Sharif.
    Now, when I spoke to former Prime Minister Bhutto, she made 
it clear that this was a constitutional route that they were 
traveling. They wanted to see the Prime Minister resign.
    In Islamabad, he was also under increasing opposition from 
Islamist groups that were opposed to the decision for the 
withdrawal from Kargil. The military, we were told, was unhappy 
with that decision. Some cited it as humiliation of the 
military that they were very opposed to.
    So, we were hearing all of these things. Because of that, 
and indeed because of other visitors that came here, including 
the Prime Minister's brother--Chief Minister Sabbaz Sharif--we 
discussed the internal situation with him. It was very clear 
that, if you will, corridor talk in Pakistan was how to get rid 
of Prime Minister Sharif. And there were also demonstrations, I 
might add, demonstrations in Karachi, in Lahore, Islamabad, 
40,000 people, demonstrations on that order.
    So, because we had heard and because of the history of 
Pakistan of ousting constitutionally elected leaders, we both 
privately and publicly made it clear that we would not support 
and, indeed, would oppose extra-constitutional means to remove 
the democratically elected head of state, but we also made it 
clear that the government should allow peaceful protests, 
legitimate dissent, freedom of the press. And there had been a 
crackdown through detaining individuals before these 
demonstrations took place. We were concerned about the 
government not allowing peaceful protests and legitimate 
protests. So, that was the message that we got out both 
privately and publicly. So, there was a lot of discussion.
    But again, it was the question of the civilian and the army 
relationship which was the key to whether or not there would be 
some move against the Prime Minister. On September 29, the 
Chief of the Army Staff, General Musharraf, and Prime Minister 
Sharif had seemed to patch up their differences. Indeed, some 
of the newspaper accounts in Pakistan had headlines such as 
this one saying, ``No Differences with Government, COAS,'' the 
chief of the army staff. So, it did appear that there was a 
move to reconcile differences, and then 2 weeks after that 
appeared to be the case, we had the crisis.
    Senator Brownback. Did you know during that 2-week time 
period by intelligence sources or by other places that some 
move was taking place, that Prime Minister Sharif was going to 
be moving on the head of the military?
    Mr. Inderfurth. No.
    Senator Brownback. You did not know that?
    Mr. Inderfurth. We did not.
    Senator Brownback. He did not call or communicate that to 
the administration.
    Mr. Inderfurth. No. No, he did not.
    Senator Brownback. And you did not have any warning about 
that taking place through signs or the intelligence service 
that that was coming?
    Mr. Inderfurth. Actually we are going back through that now 
to see if there were any telltale signs. There were certainly 
not any indications as explicit as what you are suggesting. We 
will look back and see whether or not there were any telltale 
signs that, with hindsight, could have been more of an 
indicator that the Prime Minister was about to make that move. 
But again, the fact that the army chief of staff's tenure had 
been reaffirmed through October 2001 and that he had been dual-
hatted as chairman of the joint chiefs, as well as chief of the 
army staff, it appeared that, once again, things in this 
difficult relationship had settled down. We did not expect it 
to be permanently resolved, but we thought that at least for 
the moment it had settled down.
    Senator Brownback. Did you have any communications from the 
military that if the Prime Minister moved on the military--and 
let us move this back prior to the 2 weeks before it started to 
settle down--that if the Prime Minister moved to remove the 
head of the military, that they would respond with removing the 
Prime Minister?
    Mr. Inderfurth. I think that General Musharraf himself said 
publicly that this would not be well received if there was an 
attempt to see him removed. This was not an entirely ``behind 
closed doors'' debate. Things were being said publicly, 
appearing in the press. The Pakistani press is quite lively and 
gets a lot of stories on this kind of thing. Again, there was 
no indication that we had that a plan was in place to respond 
in this fashion.
    But again, it is the history that is repeating itself that 
gives anyone dealing with Pakistan, as we do in the South Asia 
Bureau, cause to look at that history and say, are we seeing 
signs of its repeating itself? Again, there has been no 
democratically elected head of state that has fulfilled his or 
her term in office, and the army has been in control in 
Pakistan for 25 of Pakistan's 52-year history.
    Senator Brownback. For that very reason that you just 
stated, Mr. Secretary, is one of the reasons why I think we 
should be far more engaged with the Pakistani military. A 
number of them used to be trained in the United States. The 
figures I am told is that of the military leadership in 
Pakistan, it used to be 50 percent of them were trained in the 
United States, and a lot of those relationships then were built 
back and forth, many of them in my State. Many of them were 
trained in Leavenworth at the Command and General Staff College 
and a number remembered well, good, bright students, military 
people.
    But after the Pressler amendment and the stopping of that 
training and exchange back and forth, all of that dwindled off 
to the point where I am told now that of the military 
leadership, 10 percent or less has received training in the 
United States. Again, those relationships are not there and 
more of them have been trained in Islamic institutions.
    I would ask your comments about that, but it is certainly 
my view that in the future, as we look forward and try to learn 
lessons from this past decade, that we would say we clearly 
need to engage them in the United States and we need to have 
them here and to talk about civilian control and to talk about 
the proper role of the military and relationships and, as well, 
have it such that our military leaders can easily contact them 
on a personal basis and try to understand better what is going 
on with a country that has been a key ally in a tough 
situation. I would ask your response on that, whether we should 
be building and getting more involved in building those 
relationships with the Pakistani military.
    Mr. Inderfurth. We could not agree more. The best vehicle 
we have for that is the so-called IMET program, the 
International Military Education and Training program. It had 
been suspended since the Pressler amendment went into effect in 
1990, as you said. We have lost touch with a generation of 
Pakistani military leaders.
    The predecessor to General Musharraf was General Karamat 
who was a graduate of IMET. He is actually in the Leavenworth 
Hall of Fame. He went through that program. He rose to the top 
of the Pakistani military. He was removed by Prime Minister 
Sharif prior to General Musharraf assuming that position, and 
then Prime Minister Sharif tried to remove General Musharraf. I 
think you see a pattern developing here that gave the military 
some unease about its relations with the Sharif Government.
    But we believe that IMET should be restored. Actually under 
the authorities granted in your legislation last year, IMET was 
restored for India and Pakistan following the nuclear tests. 
Unfortunately, Pakistan was not able to take advantage of that 
because of other provisions of law. They were behind in their 
debt repayments, so they were not able to take advantage this 
year of IMET.
    But we would like to see that done. We believe that we need 
to have relations with the Pakistani military, and for 
precisely the reasons that you suggested, to have both a 
personal rapport with and also to try to influence their 
direction. It has in the past been a Western oriented military. 
There is clearly now a greater degree of influence of some of 
the Islamic parties and schooling, and to some degree Western 
orientation may be coming into question. So, I think we do need 
to resume, as much as we can, that kind of relationship.
    Senator Brownback. My fear is we may have missed our 
opportunity because of so much fomenting and turmoil that is 
taking place in that region of the world. Whether or not they 
will be willing to reengage with the United States--I hope they 
will, and I am glad you share my view on this.
    I want to take you to General Musharraf. Does the 
administration expect that he will establish martial law? Do 
you have any indication of what he may do in the near future?
    Mr. Inderfurth. We do not have any indication. It is very 
clear, though, that what he is hearing from us and, indeed, 
other countries around the world is that martial law or a 
military government would lead to certain consequences for 
Pakistan, which I hope that he will not want to incur. Pakistan 
is quite dependent upon international financial assistance 
through the IMF. There is a tranche of IMF funding of $280 
million that is now under consideration for Pakistan. The 
Director of the IMF, Mr. Camdessus, said yesterday in Paris 
that he was not certain whether the fund could offer assistance 
to Pakistan after the military takeover.
    That, combined with I would expect be a concern on his part 
of international isolation for a military government for 
martial law--I would hope these things would influence him to 
move quickly to restore democracy, to see a civilian government 
established, hopefully according to constitutional practices. 
He has been in consultation apparently with constitutional 
experts there.
    So, we do not have any indication which direction he is 
moving. He has taken longer than expected to make his 
announcement. General Musharraf led us to believe with his 
first announcement 2 nights ago that his next announcement 
would be about what his plans were--that his intentions would 
be known very soon. We hope that the fact that he has not 
spoken is an indication that he is getting good advice and that 
he is looking at ways to restore a civilian government very 
quickly.
    Senator Brownback. What are his options if he does not 
establish martial law? What do you see as his options?
    Mr. Inderfurth. If he does not establish?
    Senator Brownback. Yes.
    Mr. Inderfurth. There are a variety of ways that he could 
see a civilian government established. I think in terms of 
speculation, the one that is probably at the top of the list 
right now is for him to turn power over to a civilian 
government headed by technocrats, in other words, non-political 
Pakistani leaders that could head a caretaker government for a 
period of time, 6 months to a year, and then elections being 
held. Now, we would want to see elections held much sooner than 
that if that is the direction that he is going. We want to see, 
as I said, elections held soon. We want to see a civilian 
government. We want to see constitutional practices restored.
    But again, all of this is speculation right now. We have 
not been approached by anyone affiliated with General Musharraf 
to sound out any ideas. We hope again that Ambassador Milam 
will be able to meet with him and, as the President said, find 
out his intentions.
    Senator Brownback. I was just handed a note here that the 
International Monetary Fund, which last year negotiated a $1.6 
billion loan to Pakistan, announced an immediate cutoff of that 
loan until democracy is restored.
    Mr. Inderfurth. Well, again, that is what I was referring 
to in terms of the statements made yesterday in Paris by the 
Managing Director, Mr. Camdessus. What is up next in terms of 
that $1.6 billion package is this $280 million third tranche 
that has been held up since July, and it has been held up since 
July because of Pakistan's lack of compliance with agreed 
economic conditions. Now, that lack of compliance, combined 
with events this week--I would expect that that third tranche 
would be held up longer while they, and indeed while we, look 
at our support for that.
    Senator Brownback. How do you evaluate current threats of 
broader violence, sectarian violence, in Pakistan? Do you think 
these latest developments in Pakistan will affect this threat?
    Mr. Inderfurth. Well, as I mentioned in my statement, there 
has been an increase in sectarian violence. With respect to the 
events this week, again the situation does appear to be calm. 
This has not been an occasion where people have taken to the 
streets in opposition to what has taken place or indeed in 
celebration. It has been calm.
    I think our reading at this stage is that there is no 
reason to believe that during this waiting period that there 
should be any further increase or outbreak of sectarian 
violence or indeed, and perhaps more importantly, in terms of 
our look at foreign relations, any increase in tension between 
India and Pakistan. The new government of Prime Minister 
Vajpayee, which has just been sworn in, as you know, has 
adopted a very cautious, low-key approach to the situation. It 
is watching it closely. It is taking certain precautionary 
steps, but that would be normal under these circumstances.
    Prime Minister Vajpayee has made it clear that he is ready, 
willing, and able to return to a dialog with Pakistan on their 
outstanding differences. We hope that there will be a 
government in Islamabad that can respond to that offer as soon 
as possible.
    Senator Brownback. I want to take you to the relationship 
with India, where we have a new leadership in Pakistan. General 
Musharraf appears to have been responsible for the actions in 
Kargil earlier this year. Do you draw anything out of that? Do 
you have any intelligence to tell us whether or not he would, 
because of that background and history, renew hostilities 
toward India?
    Mr. Inderfurth. I would certainly hope not. We agree with 
your assessment that the Pakistani military, headed by General 
Musharraf, was an active proponent of the Kargil incursion that 
took place. It was approved, we also believe, at the highest 
level of the civilian authorities, including Prime Minister 
Sharif, and we do believe that it was a mistake.
    A brief digression. You had asked whether or not you 
thought it might be possible to have seen a negotiated 
settlement for Kargil as opposed to the meeting that took place 
at Blair House with President Clinton and Prime Minister 
Sharif. We think that what was done on July 4 was the right 
approach. Prime Minister Sharif, I think, realized that the 
situation had grown quite dangerous with India. The Indian 
military was, indeed, progressively retaking those positions 
across the line of control, and the fighting did have the 
potential for escalating either by calculation or 
miscalculation.
    Prime Minister Sharif got in touch with President Clinton 
and said, I would like to see you. I would like to talk to you 
about this. And the President made it clear that he would 
expect the Pakistani Government to take steps immediately to 
restore the line of control, to restore the sanctity of the 
line of control, which would mean those forces withdrawing.
    Prime Minister Sharif came here. They did meet throughout 
the day on the 4th of July, and he did return and he saw that 
decision taken. That brought this crisis to a close, which in 
our view was very important. It saved lives and it also meant 
that the possibility of it escalating was not there.
    So, a negotiated settlement would have required the Indians 
to sit down with the Pakistanis. That would have been the 
negotiation. They were in no mood to negotiate what they saw as 
not only an incursion by Pakistani supported forces, but also a 
betrayal, in their words, of the spirit of the Lahore summit 
where the two sides, two Prime Ministers, had agreed to resolve 
all outstanding issues, including Kashmir, peacefully. And just 
a few weeks later, Kargil occurred.
    So, I do not believe that there was any room there for 
negotiation. We had hoped there would be a decision to rectify 
what we believe was a mistake and then get the two parties back 
together. That is why the President said that with that 
restoration of the line of control, he would work very hard and 
he would have a personal interest in an intensification and 
acceleration of their bilateral efforts to resolve their 
outstanding differences. Unfortunately, now with these events 
this week in Islamabad, we are unclear about when that 
bilateral effort by the two countries can resume.
    Senator Brownback. Let me ask you if the international 
community presses hard again on Pakistan with what has taken 
place in the military coup and our law kicks in, the section 
508, with this, will we be forcing Pakistan into a closer 
relationship with countries like Afghanistan, other ones that 
have taken a lot of international condemnation, yet 
domestically appear to be willing to take that? I wonder about 
the effects of some of this, just as we look down the road. I 
am not advocating one way or the other, but I would like to 
hear your informed view of the likely effects of what that 
would do to General Musharraf in his efforts in leading his 
nation.
    Mr. Inderfurth. Well, it is not our hope or intention to 
see Pakistan further isolated. We want to, as I believe you do, 
work with them to address these issues. We certainly do not 
want to push them any closer to Afghanistan and the Taliban, 
and indeed we want to work with them on Afghanistan to try to 
address--and I mentioned that in my testimony. We have many 
concerns in Afghanistan today, some that we have talked about 
with you in this committee, including terrorism, including 
human rights, including narcotics trafficking. All of these are 
the spill-over effects of Afghanistan. We need Pakistan's help 
on that. We do not need to see Pakistan walled off and 
unreachable in terms of their engagement.
    I think that it is very clear from what we are saying 
here--and I am sure what will be reported in Islamabad--that 
General Musharraf and his colleagues will recognize that 
certain fundamental choices will need to be made about whether 
or not there will be a return to democracy, whether or not 
there will be a restoration of a civilian government, how that 
will be accomplished.
    I would rather hope that that will take place than start to 
discuss all the dire consequences if it does not. They have 
heard enough about U.S. sanctions. We have sanctioned them with 
so many different pieces of legislation. Section 508 will 
barely add to that, if at all. They proved in their pursuit of 
a nuclear capability that that was more important to them than 
getting out from under the Pressler sanctions in 1990. Let us 
hope that we do not have to go down that road. We should know 
that, I think, fairly soon.
    Senator Brownback. I would hope too that we do not have to 
go down that road. I am sitting here. I am very troubled as I 
try to look two or three steps ahead in the chess game and 
speculate what takes place or try to anticipate then how 
somebody else then moves. There has been a lot of discussion 
amongst people that I have met with and experts and others 
talking about the blow-back effect from Afghanistan into 
Pakistan. If that is truly happening and if the military has 
grown more Islamist in its orientation and thinking, I truly 
worry about the sort of consequences that could be set up by 
further isolation. I know we share that concern. I want to give 
voice to it.
    I also want to say really to Pakistan we want to be rightly 
related with them. We do not want to have a full set of 
sanctions against this nation. We want to work closely with 
them. It is not any of our desire whatsoever to press them into 
a deeper dependency or working relationship, however, you might 
put it, with a nation like Afghanistan and the Taliban. It 
would have dire consequences on us, I would think, as well. You 
would agree that it would have significant repercussions right 
next door to its neighbor on India if that happened as well. 
Would you agree with that?
    Mr. Inderfurth. I would.
    Senator Brownback. They are difficult things to 
contemplate, and yet you can almost see the setup of various of 
the pieces there, the potential, for those sort of things which 
we had not thought even really much in the potential category. 
The seeds actually exist for the possibility of those to happen 
if we do not handle these types of situations with one of an 
open hand and not so much a closed fist. So, while our own 
rules and laws put into place a certain set of sanctions, I 
hope our communications are one of encouragement in trying to 
work with them to get back to a constitutionally established 
government quickly and that we would be willing to engage with 
them broadly in ways that would be very positive if we can get 
through that period of time.
    Mr. Inderfurth. Well, I think that that will be very much 
our approach, and I think Ambassador Milam in his message will 
approach it in that fashion. We are not going there with a 
dictat. Pakistan has never, nor will it ever, respond to 
dictats from the United States or any other country. We are 
also not going there for the purpose of interfering in 
Pakistan's internal affairs. That is something that we have 
been charged with at various times, and that is not something 
that we intend to do. We do believe that these issues are ones 
that the Pakistanis themselves must address and resolve, but at 
the same time, we do believe that issues of civil liberties, of 
constitutional practices, of democracy are ones that we need to 
speak out about and to urge that these things be followed.
    There is no question that the direction of Pakistan in 
recent years, despite the interruptions, has been toward 
greater democracy, toward trying to find a way to express 
itself through the ballot box, through elections, through civil 
society, through the growth of non-governmental organizations. 
But it is still a difficult process and there are still 
setbacks, some of which, as I said earlier, have occurred not 
just from opposition to government but by government itself.
    So, we will certainly approach our task in the way that you 
have suggested and we hope that we will have a favorable 
response.
    Senator Brownback. Mr. Secretary, one last question I would 
like to ask you. One point that I had raised in my statement 
was that by our disengagement with Pakistan, we have actually 
made them more dependent on the nuclear capacity. I would like 
your thoughts as to whether or not the U.S. could have been in 
contribution actually to Pakistan's dependence on the nuclear 
option by our failure to work with them, as we have in the 
past, on conventional military forces, as we had previously but 
that has been cutoff in recent years. Have we contributed to 
their dependence on nuclear options?
    Mr. Inderfurth. Well, the Pakistani officials that we meet 
with, both those in government and those out of government, 
have made the point for a very long time that the imposition of 
the Pressler amendment, by cutting off our military supply 
relationship, forced them to have a greater reliance on 
pursuing the nuclear option. They say that the conventional 
balance was so disrupted with India that it directed their 
energies, even to a higher degree, to attaining and acquiring a 
nuclear capability. This is very, very unfortunate.
    And it is for that reason that we have been trying, as you 
well know, over the past number of months with Deputy Secretary 
Talbott in the lead, to have very in-depth discussions with 
Pakistani as well as Indian officials on security and 
nonproliferation concerns and what those concerns are from 
their point of view and what can be done about them.
    But it seems that every time we start getting closer to an 
appreciation of their views, or closer to being granted new 
authorities to waive sanctions--through the legislation that we 
have discussed--or closer to some breakthrough in relations 
between India and Pakistan, like the Lahore summit--every time 
we get closer to some kind of better understanding and perhaps 
better relationship, something like this occurs. So, we keep 
going back to square one.
    We recognize the views of Pakistani officials on this 
issue, and we hope at some point that we will be able to find 
some way to see these concerns addressed.
    Senator Brownback. I hope we shall, and if nothing else, we 
can learn from our mistakes in the past and not repeat them in 
the future.
    Secretary Inderfurth, again, thank you very much for coming 
up, particularly on such notice and on a very important matter.
    The record will remain open for 3 days if there are other 
additions you would like to put into the record of if other 
members want to put additions into the record.
    With that, thank you. The hearing is adjourned.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
